APPENDIX A

......
SU~~

.

~

\.}"74i,
. . S;U~,OF ,;~INOIS.,..t.·
A.U ... 26,}8\8,

~4t-"J..-··

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

May 27, 2020
In re:

People State of Illinois, respondent, v. Franklin C. Edwards,
petitioner. Leave to appeal, Appellate Court, Fifth District.
124885

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 07/01/2020.

Very truly yours,

Clerk of the Supreme Court

APPENDIX B

NOTICE
Decision filed 03/28/19. The
text of this decision may be
changed or corrected prior to
the filing of a Petition for
Rehearing or the disposition of

2019 IL App (5th) 180300-U

NOTICE
This order was filed under

NO. 5-18-0300
IN THE

the same.

Supreme Court Rule 23 and
may not be cited as precedent
by any party except in the
limited circumstances allowed
under Rule 23(e)(1).

APPELLATE COURT OF ILLINOIS
FIFTH DISTRICT
________________________________________________________________________
THE PEOPLE OF THE STATE OF ILLINOIS,

)
Appeal from the
)
Circuit Court of
Plaintiff-Appellant,
)
St. Clair County.
)
v.
)
No. 15-CF-720
)
FRANKLIN C. EDWARDS,
)
Honorable
)
Robert B. Haida,
Defendant-Appellee.
)
Judge, presiding.
________________________________________________________________________
PRESIDING JUSTICE OVERSTREET delivered the judgment of the court.
Justices Chapman and Moore concurred in the judgment.
ORDER
¶1

Held : Police officers had reasonable and articulable suspicion to make an
investigatory stop of the vehicle the defendant drove; therefore, the circuit
court improperly granted the defendant’s motion to suppress.

¶2

This appeal concerns the constitutionality of a traffic stop of a vehicle driven by

the defendant, Franklin C. Edwards. A police officer conducted the traffic stop in
conjunction with an investigation into a shooting incident that occurred earlier that
morning at an apartment complex in Belleville, Illinois, in which the defendant was a
suspect. The traffic stop resulted in the arrest of the defendant for driving on a suspended
license. While in custody for the traffic offense, the defendant gave incriminating
1

statements during police interrogations concerning the shooting incident and was charged
with seven offenses stemming from the incident.
¶3

The defendant filed a motion to suppress his statements, arguing that the

statements stemmed from an unconstitutional traffic stop. The circuit court granted the
defendant’s motion to suppress the statements, finding that the arresting police officer did
not have a sufficient basis to conduct the traffic stop that resulted in the defendant’s
arrest. Pursuant to Illinois Supreme Court Rule 604(a)(1) (eff. Mar. 8, 2016), the State
seeks an interlocutory review of the circuit court’s order granting the motion to suppress.
For the following reasons, we reverse the circuit court’s order and remand for further
proceedings.
¶4
¶5

BACKGROUND
At the hearing on the defendant’s motion to suppress, the State presented evidence

concerning a police investigation into a shooting incident that occurred outside an
apartment complex. During the investigation, officers learned of the defendant’s possible
involvement in the incident as well as the defendant’s use of a maroon Ford Focus that
was parked at the crime scene. This appeal concerns an officer’s investigatory stop of the
vehicle as it drove away from the crime scene on the same morning of the shooting.
¶6

The shooting incident occurred during the early morning hours on June 13, 2015,

when one or more persons discharged firearms in the parking lot of the apartment
complex, which was located on Freedom Drive in Belleville, Illinois. One of the residents
of the apartment complex, Anna Hall, called 9-1-1 to report the incident.

2

¶7

Several officers from the Belleville Police Department responded to the scene,

including Detective Daniel Collins, who arrived at around 3 a.m. Collins described the
“crime scene” as very large with “a lot of shell casings.” When Collins arrived, other
officers were already at the scene trying to determine what had transpired. During his
investigation, Collins spoke with Hall, who told him that she saw an individual firing a
“rifle.” She did not know the person’s name but, according to Collins, she said that the
person shooting was “associated” with the defendant. The record does not include any
description of the person Hall saw shooting or any elaboration on how she believed this
person was “associated” with the defendant.
¶8

Hall informed Collins that the defendant was the maintenance man for the

apartment complex and lived in an apartment inside building 217 of the apartment
complex, but she did not know which specific apartment inside the building. Hall told
Collins that the defendant was at the apartment complex that night but that she did not see
him firing a weapon. According to Collins, Hall also told him that the defendant was
“associated with a maroon Ford Focus.” Investigators located the maroon Ford Focus
parked at the apartment complex.
¶9

At the hearing, Collins told the court that a detective named Keilbach also

responded to the apartment complex and spoke to a person named Jeremy Gully. The
record does not include Keilbach’s testimony or any indication of who Gully is or what
he specifically told Keilbach about the incident except that, according to Collins, Gully
told Keilbach that he saw the defendant “out there shooting.”

3

¶ 10

As the investigation into the shooting continued, other officers and detectives

arrived at the Belleville police station to report for duty later that morning. Collins told
the circuit court that the arriving officers were “briefed *** on what had transpired,”
which included “information that had been learned by either in-person investigation,
statements from witnesses, all that.” Collins testified that Keilbach was present during the
briefing and informed the arriving officers what he learned during his interview of Gully,
presumably that the defendant was “out there shooting.”
¶ 11

Detective Patrick Koebbe arrived at the Belleville police station at approximately

8:25 a.m. on June 13, 2015, and attended the briefing described by Collins. Koebbe told
the circuit court that he was “advised that there were interviews of witnesses conducted.”
He testified that he learned from the briefing that the defendant was the maintenance man
for the apartment complex, was an individual that investigators were “looking to make
contact with,” and lived in an apartment inside building 217 or 219 of the apartment
complex. He testified that he was “advised that witnesses stated that they were familiar
with the maintenance man driving a maroon in color Ford Focus” and that “witnesses
described the shooter running into an apartment at 217 Freedom, which was indicated
that the maintenance man lived in that same area as where the apartment was pointed out
to be.” In addition, Koebbe learned that the shooter had been standing on the hood of the
maroon Ford Focus and that investigators had collected footwear impressions from the
hood of the vehicle.
¶ 12

Meanwhile, while Koebbe attended the briefing at the police station, patrol officer

David Abernathy sat in a parking lot across the street from the crime scene in a location
4

where he could keep watch on the maroon Ford Focus. The maroon Ford Focus was
parked in “one of the parking lots of the apartment complex” and had remained in the
same location since officers had arrived at the scene to investigate the incident. While
Abernathy watched the vehicle, he saw the vehicle pull out of the apartment complex’s
parking lot. He started following it.
¶ 13

Abernathy initially testified at the suppression hearing that he saw a black male

leave from an apartment building, enter the vehicle, and drive away from the parking lot.
On cross-examination, he admitted that it was possible that he did not see anyone get into
the car and that he just saw the car pull out of the parking lot. He testified that he saw that
the driver of the vehicle was a black male as it passed in front of him. Regardless, he
testified that, at the time, he did not have any physical description of the defendant and
did not know whether the defendant was a black male. He only had a description of the
vehicle that he was assigned to watch, a maroon Ford Focus with a specific license plate
number.
¶ 14

Abernathy advised “dispatch” that the vehicle had left the apartment complex and

that he was following it. Nothing in the record indicates that Abernathy included any
description of the driver when he advised dispatch that the vehicle was moving. When
asked whether he told anyone that there was a black male driving the car, he testified, “I
don’t think so.”
¶ 15

By that time, Detective Koebbe was driving to the crime scene. He received a

radio dispatch informing him that the maroon Ford Focus was leaving the apartment

5

complex. He directed Abernathy to stop the vehicle “for investigative reasons.” When
asked about the basis for stopping the vehicle, Koebbe testified:
“[W]e had witnesses state that [the defendant] was a suspect and he was associated
with a maroon vehicle. *** We know that this vehicle was *** associated with the
crime scene that was there the whole time.
***
So we knew that there was a maroon vehicle parked in the area where the
shooting occurred, actually recovered evidence from the vehicle on the hood of the
vehicle as a result of witnesses saying that the shooter was actually standing on
this vehicle. We had officers on scene the entire time while it was being
investigated. So we knew the vehicle hadn’t came or left. And then our officer
ultimately observed an individual leaving the apartment where the maintenance
man was described to have lived and entered the vehicle and then proceeded to
drive away from the scene.”
¶ 16

Koebbe testified that when he directed Abernathy to stop the vehicle, he did not

know who was driving. He did not testify that he knew that the driver was a black male.
In addition, prior to the stop, investigators had determined that the maroon Ford Focus
was registered to an individual named Rockell Bacon, not the defendant. The record does
not indicate what the officers knew at that time, if anything, with respect to Bacon’s
relationship to or association with the defendant.
¶ 17

Abernathy stopped the vehicle as directed. He did not observe the driver (the

defendant) commit any traffic violations prior to the stop. He asked the defendant for his
6

license and proof of insurance card. The defendant told Abernathy that he did not have a
license because he was suspended and that he could not provide proof of insurance.
Abernathy placed the defendant under arrest.
¶ 18

At the Belleville police station, officer Shawn Odell conducted three video-

recorded interviews of the defendant. The first interview occurred at 12:50 p.m. on June
13, 2015. The second and third interviews occurred the following day. The defendant’s
statements made during these interviews are the subject matter of the defendant’s motion
to suppress.
¶ 19

Following the in-custody interviews, the defendant was charged with seven

offenses: aggravated battery in violation of section 12-3.05(e)(1) of the Criminal Code of
2012 (Code) (720 ILCS 5/12-3.05(e)(1) (West 2014)); three counts of armed violence in
violation of section 33A-2(a) of the Code (id. § 33A-2(a)); and three counts of criminal
damage to property in violation of section 21-1(a)(1) of the Code (id. § 21-1(a)(1)). On
January 10, 2017, he filed the motion to suppress the statements he made to the police
during the June 13 and 14, 2015, police interrogations.
¶ 20

On May 18, 2018, the circuit court conducted a hearing on the defendant’s motion

to suppress and took the motion under advisement. On May 25, 2018, the circuit court
entered an order granting the defendant’s motion to suppress. The court found as follows:
“Based upon all of the facts and circumstances, the traffic stop made by the patrol officer
was not supported by a reasonable suspicion that the vehicle’s operator had committed or
was about to commit a criminal offense.” The circuit court suppressed “all evidence
produced by virtue of the improper traffic stop.”
7

¶ 21
¶ 22
¶ 23

The State now appeals.
ANALYSIS
A circuit court’s ruling on a motion to suppress evidence is reviewed under a two-

part standard of review: (1) we will not reverse the circuit court’s factual findings unless
they are against the manifest weight of the evidence, but (2) we review de novo the
circuit court’s ultimate legal ruling on whether suppression is warranted. In re D.L.H. ,
2015 IL 117341, ¶ 46. Our analysis in the present case focuses on the legal issue of
whether the circuit court correctly suppressed the evidence under fourth amendment
standards, not whether any of the circuit court’s findings of fact are against the manifest
weight of the evidence. Our review in this case, therefore, is de novo .
¶ 24

The parties agree that the validity of the circuit court’s order suppressing the

defendant’s statements hinges on the constitutionality of the traffic stop. Resolution of
that issue, in turn, centers on the application of Terry v. Ohio , 392 U.S. 1 (1968), in
which “the United States Supreme Court held that the public interest in effective law
enforcement makes it reasonable in some situations for law enforcement officers to
temporarily detain and question individuals even though probable cause for an arrest is
lacking.” People v. Galvez , 401 Ill. App. 3d 716, 718 (2010). Under Terry , “a police
officer may briefly stop a person for temporary questioning if the officer has knowledge
of sufficient articulable facts at the time of the encounter to create a reasonable suspicion
that the person in question has committed or is about to commit a crime.” People v. Lee ,
214 Ill. 2d 476, 487 (2005). The legislature has codified the Terry standards in section
107-14 of the Code of Criminal Procedure of 1963. 725 ILCS 5/107-14 (West 2014).
8

¶ 25

When determining whether an officer acted with reasonable suspicion or probable

cause, a court must consider the “totality of the circumstances.” People v. Jackson , 348
Ill. App. 3d 719, 729 (2004). Additionally, “[e]ach case is governed by its own particular
facts and circumstances.” People v. Scarpelli , 82 Ill. App. 3d 689, 694 (1980). A court
must also refrain from “second-guessing” a police officer’s professional judgment, given
that the police are often required to make “split-second decisions, without the benefit of
immediate hindsight” in situations that are often uncertain, tense, and rapidly evolving.

People v. Lomax , 2012 IL App (1st) 103016, ¶ 40. In addition, reasonable suspicion can
be established from third-party information collectively received by officers working in
concert, even if that information is not specifically known to the officer conducting the

Terry stop. People v. Maxey , 2011 IL App (1st) 100011, ¶ 54.
¶ 26

In the present case, the circuit court granted the defendant’s motion to suppress

because, when Abernathy made the traffic stop, the officers investigating the shooting did
not have “reasonable suspicion that the vehicle’s operator had committed or was about to
commit a criminal offense.” We disagree with the circuit court’s ruling. The Supreme
Court has held that investigatory stops are not limited to situations where a police officer
has reasonable grounds to suspect that a crime is being committed or is about to be
committed. If the police have reasonable suspicion, grounded in specific and articulable
facts, that a person they encounter was involved in or is wanted in connection with a
completed felony, an investigatory stop may be made to investigate that suspicion. United

States v. Hensley , 469 U.S. 221, 229 (1985). We believe that Abernathy’s investigatory
stop in the present case was constitutionally permissible under this reasoning.
9

¶ 27

In

Hensley , an informant told police officers in Ohio that the

defendant drove a getaway car in connection with a robbery of a local tavern that had
occurred six days earlier. Id . at 223. About five miles away, a police department in
Kentucky, some of whose officers were familiar with the defendant, received a “wanted
flyer” that was based upon the informant’s tip. Id. About 12 days after the robbery, a
police officer in Kentucky, who had seen the flyer, reported that he recognized the
defendant in the driver’s seat of a white Cadillac convertible. Id . at 223-24. A second
officer heard this report and pulled the automobile over for an investigatory stop a short
time later. Id . at 224. He asked the two occupants to exit the automobile. Id. The officer
saw a revolver in plain view protruding from under the passenger’s seat, and a
subsequent search of the car yielded two more weapons. Id . at 224-25. The defendant
argued that the weapons evidence should be suppressed because the arresting officer had
impermissibly stopped him in violation of the fourth amendment. Id. at 225. The
Supreme Court disagreed, concluding that the stop was proper. Id . at 233-34
¶ 28

In its analysis, the Court noted that the limits on investigatory stops to investigate

past criminal activity are determined by balancing the nature and quality of the intrusion
on personal security against the importance of the governmental interests alleged to
justify the intrusion. Id . at 228. The factors to be balanced may be somewhat different
when a stop is made to investigate past criminal activity rather than ongoing criminal
conduct. Id . For example, unlike ongoing criminal activity, a stop to investigate an
already completed crime, among other things, does not always promote the interest of
10

crime prevention. Also, public safety may be less threatened if the suspect is no longer
violating the law, and the officer making a stop to investigate past crimes has “a wider
range of opportunity to choose the time and circumstances of the stop.” Id . at 228-29.
¶ 29

“Despite these differences, where police have been unable to locate a person

suspected of involvement in a past crime, the ability to briefly stop that person, ask
questions, or check identification in the absence of probable cause promotes the strong
government interest in solving crimes and bringing offenders to justice.” Id . at 229. The

Hensley Court emphasized that, “[p]articularly in the context of felonies or crimes
involving a threat to public safety, it is in the public interest that the crime be solved and
the suspect detained as promptly as possible.” Id .
¶ 30

In the present case, the defendant does not dispute that the officers had reasonable

suspicion to believe that he had committed a crime and that they could stop him on the
street. In his brief, the defendant correctly states, “If officers encountered [the defendant]
on the street, they would almost certainly have reasonable suspicion to briefly detain him
based on Gully’s claim that [the defendant] was the one firing the weapon.” Therefore,
the issue before us is whether the police had knowledge of specific and articulable facts
giving rise to reasonable suspicion that the defendant was the driver of the maroon Ford
Focus. If so, the fourth amendment allowed them to make a Terry stop “to investigate
that suspicion.” Id.
¶ 31

A fair statement of the specific and articulable facts that justified the officer’s

reasonable suspicion that the defendant drove the maroon Ford Focus is as follows: the
officers, collectively, were aware (1) that a shooting occurred at an apartment complex
11

during early morning hours on the same morning of the traffic stop; (2) that the defendant
was identified by at least one eyewitness as being the shooter or one of the shooters;
(3) that investigators were trying to locate the defendant as a suspect in the shooting;
(4) that the defendant lived at the apartment complex where the shooting occurred and
worked there as the maintenance person; (5) that the defendant was known to drive a
maroon Ford Focus that was parked at the apartment complex at the time of the shooting
and remained parked at the apartment complex during the police investigation of the
crime scene; (6) that a shooter (perhaps the defendant) was seen standing on top of the
maroon Ford Focus during the shooting incident; (7) that investigators recovered
footwear impressions from the hood of the maroon Ford Focus during their investigation;
(8) that the maroon Ford Focus was registered to an individual named Rockell Bacon;
and (9) that on the same morning of the shooting, while an officer kept continual watch
of the vehicle, an unknown person began to drive away from the apartment complex in
the vehicle.
¶ 32

These facts establish that the officers had reason to suspect that the driver of the

vehicle was the defendant, who was wanted in connection in the shooting incident. Under

Hensley , the officers were allowed to make a brief stop to investigate their suspicion. In
Hensley , the Court stated:
“[The defendant] was reasonably suspected of involvement in a felony and was at
large from the time the suspicion arose until the stop by the *** police. A brief
stop and detention at the earliest opportunity after the suspicion arose is fully

12

consistent with the principles of the Fourth Amendment.” Hensley , 469 U.S. at
234.
The same reasoning applies here. The defendant was wanted in conjunction with the
shooting incident, and the officers’ brief stop of a suspect, based on articulable facts, at
their earliest opportunity is consistent with the principles of the fourth amendment.
¶ 33

On appeal, the defendant emphasizes that Abernathy did not know who was

driving the vehicle when he made the stop and that the officer who authorized the stop,
Detective Koebbe, did not have a physical description of the driver. Indeed, in Hensley ,
prior to the stop, an officer recognized the defendant as being the driver of the white
Cadillac that was investigated. Id. at 223-24. However, this factual distinction does not
change our conclusion.
¶ 34

In order to make a Terry stop, an officer’s suspicion need not rise to the level of

suspicion required for probable cause. United States v. Sokolow , 490 U.S. 1, 7 (1989). In
addition, the standard “falls considerably short of satisfying a preponderance of the
evidence standard.” United States v. Arvizu , 534 U.S. 266, 274 (2002). As our supreme
court stated in Close , “[p]olice officers are ‘not required to rule out all possibility of
innocent behavior’ before initiating a Terry stop.” (Internal quotation marks omitted.)

People v. Close , 238 Ill. 2d 497, 511 (2010). “ ‘The purpose of a Terry stop is to allow a
police officer to investigate the circumstances that provoke suspicion and either confirm

or dispel his suspicions .” (Emphasis added.) Id . at 512 (quoting People v. Ross , 317 Ill.
App. 3d 26, 31 (2000)).

13

¶ 35

Here, the officers’ suspicion was that the defendant was the driver of the vehicle,

and this suspicion was reasonable under the circumstances. The mere possibility that the
defendant was not the driver of the vehicle on this occasion does not negate reasonable
suspicion that he could be driving the vehicle under the totality of the circumstances
facing the officers at the time of the stop. People v. Hernandez , 2012 IL App (2d)
110266, ¶ 32.
¶ 36

The officers did not know who was driving the vehicle or have a physical

description of the driver when Koebbe authorized the traffic stop, but the officers stopped
the vehicle with knowledge that the defendant was known to drive that specific vehicle
and with knowledge that the vehicle was leaving the crime scene (which was also the
defendant’s residence) on the same morning of the shooting. The proximity of time and
location of the articulable facts lends support to Koebbe’s suspicion that the defendant
drove the maroon Ford Focus at the time of the stop. See also United States v. Lucky , 569
F.3d 101, 106 (2d Cir. 2009) (upholding Terry stop of vehicle where the officers could
not determine whether the driver matched the description of a shooter but the vehicle
matched a description of an automobile that fled the shooting two days earlier); and

United States v. Hurst , 228 F.3d 751, 757 (6th Cir. 2000) (stop of vehicle upheld where
its appearance “roughly” matched a description of vehicle involved in a residential
burglary and was observed at a location consistent with the time needed to travel to that
point from the burglary location (25 minutes)).
¶ 37

The reasonableness of the stop in this case is particularly apparent after

considering the “balance between the public interest and the individual’s right to personal
14

security.” United States v. Brignoni-Ponce , 422 U.S. 873, 878 (1975). Here, the public’s
interest was in apprehending a potentially violent offender hours after a shooting
incident. The defendant was at large and was wanted for criminal activity that posed a
serious threat to public safety. This public interest weighs heavily against the minor
intrusion of the driver of the maroon Ford Focus stemming from a brief traffic stop. An
investigatory stop is by definition “brief” and “non-intrusive.” United States v. Johnson ,
364 F.3d 1185, 1188 (10th Cir. 2004); see also Delaware v. Prouse , 440 U.S. 648, 653
(1979) (noting investigatory stop of an automobile “is limited [in purpose] and the
resulting detention quite brief”). Balanced against the strong governmental interest in
solving violent crime, the relatively limited intrusion on personal security occasioned by
the investigatory stop was warranted. The officers’ brief seizure of the driver of the
maroon Ford Focus was constitutionally reasonable under the totality of the
circumstances.
¶ 38
¶ 39

CONCLUSION
For the foregoing reasons, we reverse the order of the circuit court granting the

defendant’s motion to suppress and remand for further proceedings.

¶ 40

Reversed and remanded.

15

